■r

No:

0-55S
IN THE
SUPREME COURT OF THE UNITED STATES

In Re Marcos Antonio Blancas
PETITIONER
(Your Name)
-VUnited States of America
RESPONDENT
ON PETITION FOR A WRIT OF PROHIBITION PURSUANT
TO ALL WRITS ACT 28 U.S.C. 1651(a), DIRECTED TO
ASSOCIATE JUSTICE WITH SUPERVISORY CONTROL OVER
THE FIFTH CIRCUIT UNDER SUPREME COURT RULE 22-1.
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
NAME OF COURT THAT RULED ON THE MERITS OF YOUR CASE
PETITION FOR A WRIT OF PROHIBITION
In Re: MARCOS ANTONIO BLANCAS

(Your Name)
FEDERAL CORRECTIONAL INSTITUTION
(Address)
P.O. BOX 3000
ANTHONY, NM/TX 80021
.r*

(City, State, Zip Code)
-V

-•-----'
(Phone Number)

*

i

i
QUESTIONS PRESENTED

-V

-i

;

WHETHER BY REASON OF THE GOVERNMENT BREACHING AN AGREEMENT IT EXECUTED WITH MARCO ANTONIO
BLANCA, THE DISTRICT COURT EFFECTIVELY LOST SUBJECT MATTER JURISDICTION UNDER THE POWERS
GRANTED IT BY CONGRESS PURSUANT TO 28 U.S.C. 3231.

!
>

V_

lx

Si

•••

Jm3®

E

1

; •>*’

LIST OF PARTIES
In Re Marcos Antonio Blancas
-VUnited States of America
Then names of all parties appear in the caption of the case on the cover page. There are no additional parties.

'7

T-4

:•

r-.i,»

II

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW

prefix

OPINION BELOW

a-3

JURISDICTION
RELEVANT PROVISION

REASON FOR GRANTING THE PETITION

6>
*7 i Q-r

CONCLUSION

13^ ^

STATEMENT OF THE CASE

APPENDIX A

r,

'

A_

-^V

tu

•k ** ®

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is^
[^reported atj -*0 &1W6H 4
\(\A

to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:

-

—

The opinion of the highest state court to review the merits appears at
Appendix-------- to the petitSomand is
[-] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

..

'AT*---iJ: ..
.a*

fey:'"-''
r*..

». ls‘ • •

The opinion of the _
court
appears at Appendix
.tbttheFpetition and is
v4
[ ] reported at------—
----• m[ ] has been designated forrp'i^ieatioy but is not yet reported; or,
[ ] is unpublished.
: '
__
1.

• '.rESS

>•- • . •>:'

kT-

STATEMENT OF JURISDICTION
The Supreme Court of the United States has original jurisdiction over three categories of cases.
First, the Supreme Court can exercise original jurisdiction over "actions proceedings to which
ambassadors, other public ministers, consuls, or vice consuls of foreign states are parties," See,
Maryland v. Louisiana, 451 U.S., 725, 737 (1981). Second, the Supreme Court also possesses
original jurisdiction for "(all) controversies between the United States and a State." 28 U.S.C.
Section 1251 (b)(2). Finally, Section 1251 provides for original jurisdiction in the Supreme Court
for "all actions or proceedings by a state against the citizens of another state or against aliens."
See, e.g. Oregon v. Mitchell, 400 U.S. 112 (1970); United States v. Louisiana, 339 U.S. 699
(1951); United States v. California, 332 U.S. 19 (1947).

The statutes defining the Supreme Court's jurisdiction between "appeals" and "certiorari" as
vehicles for appellate review of the decisions of state and lower federal courts. Where the
statute provides for "appeal" to the Supreme Court, the Court is obligated to take and decide
the case when appellate review is requested. Where the state provides for review by "writ of
certiorari "the Court has complete discretion to hear the matter.

The Court takes the case if there are four votes to grant certiorari. Effective September 25,
1988, the distinction between appeal and certiorari as a vehicle for Supreme Court review
virtually eliminated. Now almost all cases to the Supreme Court by writ of certiorari. Pub. L. No.
.100-352, 102 Seat, 662 (1988).

__________ ____
V'i'c

TT^Jpj^WoHlBiTION PURSUANT TO 28 U.S.C. SECTiST^iCT^IWAID OF THE SUPREME
COURT'S JURISDICTION.

- ■ --if.-*!?. ~ j

(A)Jhe Supreme Court and all courts established in aid oflheir respective jurisdiction and
g^eabie-to the usages and principles of law. ;=i
““

fct

y.-rt-

o alternative writ oTruleTnaybe" si suedlDya1 ustice it-ni

-- istice

-.•’SC-

to_a writ of prohibition is submitted may refer to the Court for determination.

*****

■riiraUilagr'W1'

2

a

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was i
n % ‘ItO'bQ ~
E/T^No petition for rehearing was timely filed i
m my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: _____________________ and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including----------------------------(date) on___________________(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix____
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including---------------------- (date) on_______________ (date) in
Application No.__ A
The jurisdiction of this Court is invoke^ under 28 U. S. C. § 1257(a).
■as.

3-------

CONSTITUTIONAL AND STATUTORY PROVISIONS
In conducting harmless error analysis of constitutional violations, including direct appeals and especially habeas generally, the
Supreme Court repeatedly has reaffirmed that "(some constitutional violations ...by their very nature are so much doubt on the
fairness of the trial process that, as a matter of law, they can never be considered harmless. Satterwhite v. Texas, 486 U.S. 249,
256 (1988); accord Neder v. United States, 527 U.S. 1, 7 (1999) ("We have recognized a limited class of fundamental
constitutional errors that defy analysis by "harmless error,” standards"...Errors of this type are so intrinsically harmful as to
require automatic reversal(i.e. affect substantial rights) without regard to their effect on the outcome.")
Sullivan v. Louisiana, 508 U.S. 275, 279 (1993))"Although most constitutional errors have been held to harmless error analysis,
some will always invalidate the conviction" (citations omitted), Id. at 183 (Rehnquist, C.J. concurring); United States v. Olano,
507 U.S. 725, 735 (1993); Jose V. Clark, 478 U.S.. 570, 577-78 (1986) ("some constitutional errors require reversal without
regard to the evidence in the particulars case...because they render a trial fundamentally unfair");
Vasquez v. Hillery, 474 U.S. 254, 283-264 (1986); Chapman v. California, 386 U.S. 18, 23 (1967) ("there are =some
constitutional rights so basic to a fair FORMAL that their infraction can never be treated as harmless error").
JUDICIAL NOTICE/STATEMENT OF ADJUDICATIVE FACTS PURSUANT TO RULE 201 OF THE FEDERAL RULES OF
EVIDENCE.
The right to effective assistance of counsel. See, Kyle's v. Whitley, 514 U.S. at 435- 436; United States v. Cronic, 466 U.S. 648,
654-57 (1984); Hill v. Lockhart, 28 832, 839 (8th Cir. 1994)("lt is unnecessary to add a separate layer of harmless-error
analysis to bar evaluation of whether a petitioner has presented a constitutionally significant claim for ineffective assistance of
counsel).

..la."

•-i-s

■

....

"**8M*"1
Sr?.: . ■'——
.

•T

4-

.<w

LAW RELATED TO STRUCTURAL ERROR
Included in the rights granted by the U.S. constitution, is the protection against prosecutorial suppression or manipulation of
exculpatory evidence and the prosecutorial and judicial failures that amount to fraud upon the court. Failure to make available to
defendant s counsel, information that could well lead to the assertion of an affirmative defense is material, when 'materiality' is
defined as at least a 'reasonable probability that has the evidence been disclosed to the defense, the result of the judicial
E.o«??'?9S would have been different. Kyles v. Whitley, 514 U.S. at 435 (quoting United States v. Bagley, 473 U.S. 667, 682
juris) (P Urahty opimon); ld- at 685 (WMe. J. concurring in judgment)). Counsel impermissibly withheld evidence of strict’issimi
In addition to Bagley which addresses claims of prosecutorial suppression of evidence, the decisions listed below all arising in
what might be loosely be called the area of constitutionally guaranteed access to evidence," Arizona v. Youngblood 488 U.S.
51 , 55 (1988)(quoting U..S. v. Valenzula-Bernal, 458 U.S. 856, 867 (1982) or require proof of "materiality" or prejudice.
The standard of materiality adopted in each case is not always clear, but if that standard required at least a "reasonable
probability of a different outcome, its satisfaction also automatically satisfies the Utrecht harmless error rule. See e g Arizona
v. Youngblood, supra at 55 (recognizing the due process violation based on state's loss or destruction before trail of material
evidence); Pennsylvania v. Ritchie, 480 U.S. 39, 57-58 (1987)(recognizing due process violation bases on state agency's
refusal to turn over material social services records’ "information is material" if it "probably would have changed the outcome of
his trial citing United States v. Bagley, supra at 685 (White, J. concurring in judgement).
Ake v. Oklahoma, 470 U.S. 68, 83 (1985)(denial of access by indigent defendant to expert psychiatrist violates Due Process
Clause when defendant's mental condition is "significant factor" at guilt-innocence or capital sentencing phase of trial)California v. Trombetta, 467 U.S. 479, 489-90 (1984)(destruction of blood samples might violate Due Process Clause if there
were more than slim chance evidence would affect outcome of trial and if there was no alternative means of demonstrating
innocence.)United States v. Valenzuaela-Bernal, supra at 873-874 ("As in other cases concerning the loss (by states or
government of material evidence, sanctions will be warranted for deportation of alien witness only if there is a reasonable
likelihood that the testimony could have affected the judgment of the Trier of Fact. "Chambers v. Mississippi 40 U S 284 302
(1973)(evidentiary process."); Washington v. Texas, 388 U.S. 14, 16 (1967)(violation of Compulsory Process Clause when it
arbitrarily deprived defendant of "testimony (that) would have been relevant and material, and ...vital to his defense.").

-=~

5-

STATEMENT OF CASE
Marco Blancas was convicted and sentenced in 2002. He did not file an appeal. His 28 U.S.C. Section 2255 motion to vacate,
set aside, or correct sentence was dismissed with prejudice. He subsequently filed a motion for a reduction of sentence under
Federal Rule of Criminal Procedure 35(b), pursuant to an agreement he signed with the government, in which he was to
convince his brother who was in Mexico to come to the United states to face prosecution. Marco Blancas convinced his brother
to come to the United States as stipulated in the agreement, where he was prosecuted. But the government reneged on the
promise in the agreement that he was going to get a sentence reduction as memorialized in the signed agreement.
Marco Blancas file his memorandum in support of his petition for a Writ of Mandamus, in the memorandum, Blancas reiterates
his claim that the government breached his post-plea agreement. That in light of this breach, the government should honor the
time reduction in the agreement, both he and the government signed. Blanca's paid the filing fee of $505.00. On April 9, 2020, a
panel of the fifth circuit, re-characterized his Writ of Mandamus as a Notice of Appeal, in the distinct court, and Marco Blancas is
being made to pay another $505.00 for the Notice of Appeal.

— "TV

■ST

REASONS FOR GRANTING
Marco Antonio Blancas, respectfully seeks leave of this Honorable Court to entertain his application for a Writ of Prohibition
which he has applied for, under the All Writs Act, 28 U.S.C. 1651(a) which in pertinent part, states that, all courts established by
Act of Congress may issue, all writs necessary or appropriate in aid of their respective jurisdictions, and agreeable to the
usages and principles of law."
WHY MARCO ANTONIO BLANCAS IS FILING THIS WRIT IN AID OF THIS HONORABLE COURT'S APPELLATE
JURISDICTION
As here, the traditional use of the Writ in aid of appellate jurisdiction both at common law and in the federal courts, has been to
confine the court against which the Writ of Prohibition is sought, to a lawful exercise of its prescribed jurisdiction. "Roche v.
Evaporated Assn, 319 U.S. 21, 26 87 L.Ed 1185, 63 S.Ct., 938 (1943).
One of the primary reasons, Marco Antonio Blancas is seeking a 'drastic and extraordinary remedy reserved for really
extraordinary cases is the fact that the District Court Judge was unwilling to play by the rules, with respect to the Government
violating as legally executed agreement entered with Marcos Antonio Blancas. An agreement in which an officer of the United
State Attorney's office affixed his signature on an agreement, pursuant to Marcos Antonio Blancas persuading his brother who
was in Mexico to return to the United States for prosecution. Marco Antonio Blancas fulfilled his part of the agreement, but the
government, apparently in complicity with the district Court judge decided to ignored the Government's obligation to honor their
part of the agreement to reduce the formers sentence under the agreement.
What makes this case particularly bad for the administration of justice in the Fifth Circuit is the fat that, the Fifth Circuit appears
to be in complicity with the District Circuit. Marco Antonio Blancas filed a Writ of Mandamus to the Fifth Circuit to compel the
District Court Court to honor its obligation under the agreement, but the Fifth Circuit Court of Appeals decided to impermissibly
re-characterize the Writ of Mandamus as a Notice of Appeal, which means separate from the fact that, Marco Antonio Blancas
had already paid the sum of $505.00 for the Writ of mandamus, he is being asked to pay another $505.00 for the remand to the
District Court under the disguised Notice of Appeal.
This case constitutes is a glaring.case of judicial activism endorsed and rubberstamped by a Panel of Circuit judges in the Fifth
Circuit, where Marcos Antonio Blancas is being given the run-around by the Circuit Judges and-.theDistrict Court Judge, with
the Government coming along for the ride. Stripped of its legal niceties, this case constitutes an "...imprimatur to a miscarriage
of justice."
WHY MARCO ANTONIO BLANCAS CANNOT SEEK RELIEF ELSEWHERE, ESPECIALLY IN THE DISTRICT COURT AND
THE FIFTH CIRCUIT PRIMARILY BY REASON OF THE LAW OF THE CASE DOCTRINE.
The denial of Marco Antonio.Blanqat£^Writ.of.Mandamus, for him is a watershed moment, thatxigfltLJead to as referenced
above"...an imprimatur to a miscarrjage.of justice." It underlines, why he cannot seek relief else where. Why it will be
impossible and futile to expect1t/lafCB*Ahtonio Blancas to file a 'Notice of Appeal' to the distribttiMft,'whose egregious conduct,
even if found cognizable, will beJaanced-by the Law of the Case doctrine, which prohibits-one panelof Fifth Circuit judges, from
overturning the decision of another panel. Marco Antonio Blancas concedes the Mandamus or the Writ of Prohibition should be
granted only in the clearest and most compelling cases, In re Willy, 831 F.2d 545, 549 (5th Cir. 1987).
The Fifth Circuit held in Campanioni v. Barr, 962 F.2d 461, 464 (5th Cir. 1992) that "Where an interest can be vindicated through
direct appeal after a final judgment, this court will ordinarily not grant a writ of mandamus." In addition to Marco Antonio
Blancas's argument above that, the Law of the Case Doctrine forecloses any attempts to get relief through the re-characterized
'Notice of Appeal' appeal, he further contends that courts including the Fifth Circuit have held a Writ of Mandamus may be
construed as a timely notice of appeal, if it clearly evinces, as here, an intent to appeal and is filed within the time prescribed by
the Federal Rule of Appellate Procedure 4. See Yates v. Mobile Cty. Pers. Bd., 658 F.2d 298, 299 (5th Cir. Cir. 1981). FED. R.
APP. P. 4(c)(1).

WHETHER BY REASON OF THE NUMEROUS CONSTITUTIONAL VIOLATIONS COMMITTED BY THE
DISTRICT COURT IT EFFECTIVELY LOST SUBJECT MATTER JURISDICTION AND THE POWERS
GRANTED IT BY CONGRESS UNDER 28 U.S.C. 3231

The use of a petition for a Writ of Prohibition is well settled. It is patently clear from two
Supreme Court cases in Dairy Queen Inc. v. Wood, 469 U.S. L.Ed.2d 44 825 S. Ct. 894 (1962),
and Beacon Theaters v. Wood, 359 U.S. L.Ed.2d 988, 79 S. Ct. 948 (1959), support the use of the
writ of Prohibition to correct an abuse of discretion by the district court. Personette v.
Kennedy) In re Midgard Corp) 204 B.R. 764, 768 (10th Cir. 1997).

Like the case at bar, the following cases show that the district court "displayed a persistent
disregard of the criminal and civil rules of procedure." Moothart v. Bell, 21 F.3d 1499,1504
(10th Cir. 1994)(quoting McEwan v. City of Norman, 926 F.2d 1539, 1553-54 (10th Cir. 1991);
Jennings v. Rivers, 394 F.3d 850, 854 (10th Cir. 2008)(appellate review of trial court's decision
on post judgment se aide voluntary dismissal with prejudice if it was not "free, calculated and
deliberate choice"). Hackett v. Barnhart, 475 F.3d 1166, 1172 (10th Cir. 2007) (quoting Kiowas
Indian Tribe of Oklahoma v. Hoover, 150 F.3d 1163,1165 (10th Cir. 1998). In re Graves, 609
F.3d 1153, 1156 (10th Cir. 2010); See Braunstein v. McCabe, 571 F.3d 108,120 (1st Cir. 2009)
(giving courts broad discretion in preventing injustice or fairness).

The real issue at stake in this case is one of subject matter jurisdiction. Subject matter
jurisdiction also refers to the competency of the court to hear and determine a particular
category of cases. Federal district courts have "limited" jurisdiction in that they have no such
jurisdiction as is explicitly conferred by federal statute. 3231 et seq.

Thus, given the totality of the claims raised by David Lopez in this petition, he expects the
Suprerne^Gourt to determine if the District Court and the Court of Appeals properly exercised
the jurisdiction conferred on it by 28 U.S.C. 3231 and 28 U.S.C. Section 1291 respectively, and
whether the constitutional prohibition against Double jeopardy, includes within it, the right of
the defendant (but not the state) to plead 'collateral estoppel' and thereby preclude proof of
some essential element of the state's case found in the defendant's favor.

n

PETITIONER'S PROFFER OF ACTUAL INNOCENCE.
In four cases, the Supreme Court has elaborated the meaning of actual innocence. In Sawyer v.
Whitley, (citations omitted) the issue of what actual innocence meant in the context of
challenging a sentence. Petitioner invokes Herrera v. Collins (citations omitted) for the
proposition that "actual innocence itself is not a constitutional claim, but a gateway through
which a habeas petitioner, must pass to have his otherwise barred constitutional claims
considered on the merits."506 U.S. 390, 404 (1993).
Following Herrera v. Collins, the Court decided Schlup v. Delo, (citations omitted). The court
held, to prove actual innocence, a habeas petitioner must show there was a constitutional
violation that "probably resulted" in the conviction of one who is actually innocent. 513 U.S.
298, 327 (1995) as in the case at bar.
In House v. Bell, (citations omitted), the Supreme Court found that the requirements for
showing actual innocence were met to allow a procedurally defaulted claim of ineffective
assistance of counsel to be added. 547 U.S. 518 (2006). Thus, petitioner contends, he was
prejudiced pursuant to United States v. Frady, where the Supreme Court indicated that
"prejudice" could be demonstrated by showing that the results in the case likely would have
been different absent the complained of violation of the constitution or federal law.
These errors would be to petitioner's actual and substantial disadvantage, infecting the entire
judicial proceedings with errors of constitutional dimensions, 456 U.S. at 170 (emphasis in
original). The results would have been different, but for the violation of federal law. See also
Murray v. Carrier, 477 U.S. 478, 496 (1986). Strickler v. Greene, 527 U.S. 253 (1993).
ABUSE OF DISCRETION BY THE DISTRICT COURT BY CONTINUING THE JUDICIAL PROCEEDINGS
WHEN IT BECAME APPARENT THAT AFTER THE GOVERNMENT RESTED ITS CASE, THE
EGREGIOUS ERRORS IMPLICATING THE INDICTMENT, CONSTRUCTIVE DENIAL OF COUNSEL ETC,
IT HAD LOST SUBJECT MATTER JURISDICTION, AN ISSUE PARAMOUNT TO PETITIONER'S CLAIM
OF ACTUAL INNOCENCE.
Article 3, Section 2, of the United States constitution states,-jp pertinent part that 'United States
District Courts have only such jurisdiction as is conferred by an Act of Congress under the
Constitution. See, 28 U.S.C.A. 1344)(Hubbard v. Ammerman, 465 2d 1169 (5th Cir. 1972)(head
note 2. Courts).
Petitioner avers that 'The United States District Courts are not courts of general jurisdiction.
-^The^Mave-no jurisdiction except as prescribed by Congress p«553ant to Article 111 of the
Constitution, (many cites omitted)

Graves v. Snead, 541 F.2d 159 (6th Cir. 1876)

V°*

The question of jurisdiction in the court either over the person, the subject-matter or place
where the crimes was committed can be raised at anytime in the proceeding. It is never
presumed, but must always be proved, and it is never waived by the defendant.
U.S. v. Rogers, 23 F.658 (D.C. Ark. 1885)
In a criminal proceeding, lack of subject matter jurisdiction cannot be waived and may be
asserted at any time by collateral attack.
U.S. v. Gernie, 228 F. Supp. 329 (D.C.N.Y. 1964).
Jurisdiction of court can be challenged after the conviction by judgment by way of a writ of
habeas corpus.
Mookini et al. v. U.S. 303 U.S. U.S. 201 (1936).
(emphasis added)

The words district court' of the United States commonly describe constitutional courts created
by Congress under Article 111 of the constitution and not territorial courts.

In Longshoremen's and Warehousemen's Union et al v. Wiirtz, 170 F.2d 183 (9th Cir. 1948)
(head note 1)
(emphasis added)

Peersonette v. Kennedy (In re Midgard Corp.) 204 B.R. 764, 768 (10th Cir. 1997)(order is final
under collateral order doctrine,- if it;
(1) conclusively determines a disputed question completely separate from the merits of the
action;
’2).is effectively unreviewable on appeal from a^^^Sagment, and;
.zssk.

(3) is too important to be denied review.
Pierce v. Underwood, 487 U.S. 552, 558, 108 S.Ct. 2541,101 L.Ed.2 490 (1988), Fowler v. Bros.
vjn re: Young, 91 F.3d 1367, 1370 (10th Cir.
- ^•-.7

>3

C**" • -

SlayeLRegina College v. Russell, 490 U.S. 22-5*238H

?6t^l'2-17--113 L.Ed.2d 190 (1991)

■vm

Las Vegas Ice & Cold Storage Co. v. Far W. Bank, 893 Fv2d 1182, 1185 (10th Cir. 1990)(quoting
LeMaire v. United States, 826 F.2d 949, 953 (10th Cir. 1991).

.. 'u

Moothart v. Bell, 21 F.3d 1499, 1504, (10th Cir. 1994)(quoting McEwan v. City of Norman, 926
F.2d 1539, 1553-54 (10th Cir. 2005)(appellate court reviews trial court's decision on post
judgment for abuse of discretion). Warfield v. Allied Signal Holdings, Inc, 267 F.3d 538, 542 (6th
Cir. 2001)(courts have discretion to set aside voluntary dismissal with prejudice, if it was not a
"free, calculated, and deliberate choice).Hackett v. Barnhart, 475 F.3d 1166, 1172 (10th Cir.
2007)(quoting Kiowa's Indian Tribe of Oklahoma v. Hoover, 150 F.3d 1163,1165 (10th Cir.
1998). In re Graves, 609 F.3d 1153, 1156 (10th Cir. 2010).
See Braunstein v. McCabe, 571 F.3d 108,120 (1st. Cir. 2009)(....)The Court of Appeals could
reach merits of the case in other to determine jurisdiction, though claim found to authorize
appeal.
United States v. Ruiz, 536 U.S. 622 (2002). A federal court has jurisdiction to determine its own
jurisdiction.
Marine-Debjorgnez v. Ashcroft, 365 F.3d 510, 516 (8th Cir. 2002)(Court of Appeals could reach
merits of case to determine legality of sentence for jurisdiction).
Petitioner's case also implicates Will v. United States, 389 U.S. 90, 19 L.Ed.2d 305, 885 S.Ct. 269
(1967), where the Supreme Court on the same language utilized in cases like Labuy, that
essentially laid the foundation of Justice Brennan's dissent.

-sag*-* -

Ea&M

•-j

■aw

IX

p-»-

r-» -

CONCLUSION

In conducting harmless error analysis of constitutional violations, including direct appeals and
especially habeas generally, the Supreme Court repeatedly has reaffirmed that "(some
constitutional violations...by their very nature cast so much doubt on the fairness of the trial
process that, as a matter of law, they cannot be considered harmless. Safferwhite v. Texas, 486
U.S. 249, 256 (1988); accord Neder v. United States, 527 U.S. 1, 7 (1999) ("We have recognized
a limited class of fundamental constitutional errors that defy analysis by "harmless error"
standards.'...Errors of this type are so intrinsically harmful as to require automatic reversal (i.e..
'affect substantial rights') without regard to their effect on the outcome.") Sullivan v. Louisiana,
508 U.S. 275, 279 (1993) ("Although most constitutional error have been held to harmless-error
analysis, they will always invalidate the conviction "(citations omitted).

Date

Respecuu

&

itted,

(

7,: •

• v_; fsw?
—

\z

CONCLUSION

The petition for a writ of

Respeetfull;

Date:

should be granted.

9

'kMaigjf

